No.
In The

Supreme Court of the United States
JAMES W. RICHARDS IV,
Petitioner,
v.
BARBARA M. BARRETT,
SECRETARY OF THE
AIR FORCE,
AARON GUILL,
COLONEL, COMMANDER,
AIR FORCE SECURITY FORCES CENTER,
CAROLINE K. HORTON,
COLONEL, COMMANDANT,
UNITED STATES DISCIPLINARY BARRACKS,
Respondents.

On Petition for a Writ of Certiorari to the
Court of Appeals for the Armed Forces

CERTIFICATE OF COMPLIANCE
In accordance with Supreme Court Rule 33.1(h), I certify that the
Petition for a Writ of Certiorari contains 5,323 words, excluding the
parts of the Petition that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and
correct.

Executed on October 2, 2020
ALEXANDER A. NAVARRO
Counsel of Record
Appellate Defense Division
United States Air Force
1500 West Perimeter Road Suite 1100
Joint Base Andrews, MD 20762
(240) 612-4770
alexander.navarro.4@us.af.mil

